                                    SOCIAL SECURITY
MEMORANDUM
Date:   June 2, 2003                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Use of State Bureaus of Vital Statistics Records to Detect Unreported Marriages and
        Divorces (A-09-00-30059)


        The attached final report presents the results of our audit. Our objective was to
        determine the usefulness of State bureaus of vital statistics records to identify
        beneficiaries who did not report their marriages and divorces.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                              James G. Huse, Jr.


        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    USE OF STATE BUREAUS OF
    VITAL STATISTICS RECORDS
     TO DETECT UNREPORTED
    MARRIAGES AND DIVORCES

    June 2003    A-09-00-30059




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to determine the usefulness of State bureaus of vital statistics (BVS)
records to identify beneficiaries who did not report their marriages and divorces.

BACKGROUND
The Social Security Administration (SSA) relies on beneficiaries to voluntarily report any
changes in their marital status. Since marriage or divorce affects the relationship of a
beneficiary to the worker, these changes could also affect their continuing entitlement to
benefits. Prior audit work disclosed that computer matches with State BVS records may
be useful to identify Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries
who had not reported their marriages or divorces in a timely manner. Accordingly,
SSA requested that we conduct a special project to determine the effectiveness and
feasibility of these computer matches.

RESULTS OF REVIEW

Our review disclosed that State BVS records from Georgia, Kansas, Oregon, and
Vermont were useful to identify OASDI beneficiaries who had not reported their
marriages to SSA. Furthermore, based on the results of our computer match, we
found that the projected savings outweighed the related costs of purchasing and
processing the marriage records. Although State BVS records may be used to identify
beneficiaries who had not reported their divorces to SSA, our review disclosed that a
computer match was not cost-effective for divorce records.

Using State BVS records from the four States included in our review, we found that
700 beneficiaries received $2,716,854 in overpayments and 8 individuals received
$49,599 in overpayments because they did not report their marriages and divorces,
respectively, from January 1990 to December 1998. We recognize the actual number
of marriages and divorces and the availability of these records in an electronic format
may vary by year and State. However, to demonstrate the potential effectiveness of
matching electronic marriage records, we assumed the unreported marriages in the four
States were representative of those in the United States. Accordingly, we extrapolated
the results of our review to the 50 States plus Puerto Rico and the District of Columbia.

If SSA had purchased State BVS records to identify unreported marriages at the end
of 1999 and each year thereafter, we estimate that SSA could have detected about
$11.9 million in OASDI overpayments on an annual basis at an estimated cost of
$1.7 million, resulting in program savings of about $10.2 million. Over a 5-year period,
we estimate that SSA could have realized about $51.2 million in program savings,



Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)       i
including about $17.3 million in the year of marriage and about $33.9 million in
subsequent years (see Appendices A and B).

RECOMMENDATIONS
We recommend that SSA conduct a survey of State BVS agencies to determine the
cost of purchasing marriage records and encourage States to convert their records into
an electronic format. We also recommend that SSA establish guidelines to monitor
the cost-effectiveness of computer matching, work with State BVS agencies to obtain
matching agreements, and purchase marriage records to identify beneficiaries who
did not report their marriages. In addition, we recommend that SSA initiate corrective
action on the 700 unreported marriages and 8 unreported divorces identified during our
review.

AGENCY COMMENTS
In its response, SSA agreed with the potential savings resulting from the use of State
BVS records to identify beneficiaries who did not report their marriages. Although SSA
agreed with the cost-effectiveness of performing computer matches, it was unable to
implement many of our recommendations at this time because of a lack of resources.
SSA agreed to rely on other tools, including the Beneficiary Recontact Program, to
identify unreported marriages. In addition, SSA agreed to continue in its efforts to work
with the National Center for Health Statistics and National Association for Public Health
Statistics and Information Systems to promote the reengineering of State vital records
processes. SSA also stated that it had initiated corrective action on the unreported
marriages and divorces identified during our review. The full text of SSA’s comments
is included in Appendix C.

OIG RESPONSE
We recognize that limited resources may place constraints on the Agency. However,
we believe that periodic computer matches with State BVS records are necessary to
reduce the Agency’s vulnerability to individuals who misrepresent their marital status to
receive benefits to which they are not entitled. Therefore, we encourage SSA to seek
authority for additional resources to strengthen program integrity and stewardship.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)        ii
                                                          Table of Contents
                                                                                                               Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

Unreported Marriages .............................................................................................6

        Improper Payments ......................................................................................7

        Lessons Learned ..........................................................................................8

Unreported Divorces ...............................................................................................9

CONCLUSIONS AND RECOMMENDATIONS.....................................................10

APPENDICES

Appendix A – Cost-Benefit Analysis for Four States

Appendix B – Cost-Benefit Analysis for the United States

Appendix C – Agency Comments

Appendix D – OIG Contacts and Staff Acknowledgments




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)
                                                                  Acronyms
BVS             Bureau of Vital Statistics

HHS             Department of Health and Human Services

MBR             Master Beneficiary Record

OASDI           Old-Age, Survivors and Disability Insurance

OIG             Office of the Inspector General

SSA             Social Security Administration

SSI             Supplemental Security Income

SSN             Social Security Number




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)
                                                                      Introduction
OBJECTIVE
Our objective was to determine the usefulness of State bureaus of vital statistics (BVS)
records to identify beneficiaries who did not report their marriages and divorces.

BACKGROUND
The Social Security Administration (SSA) administers the Old-Age, Survivors and
Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs under
titles II and XVI of the Social Security Act (Act). The OASDI program provides benefits
to retired and disabled workers, including their dependents and survivors. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled. In Fiscal Year 2000, the OASDI program provided cash payments of
$402.1 billion to 45.3 million beneficiaries. In addition, the SSI program provided
cash payments of $30.8 billion to 6.6 million recipients.1

Generally, SSA relies on beneficiaries to voluntarily report any changes in their marital
status. Since marriage or divorce affects the relationship of a beneficiary to the worker,
these changes could also affect their continuing entitlement to benefits. For example,
a divorce may affect the OASDI benefits payable to spouses of retired and disabled
workers. Specifically, a divorce results in the termination of benefits for (1) spouses
under age 62 with a child in-care who is under age 16 or disabled and (2) spouses
age 62 or older who were married to the worker for less than 10 years before the
effective date of the divorce.2

In addition, a marriage may affect the OASDI benefits payable to divorced spouses
of retired and disabled workers; surviving spouses and surviving divorced spouses
of deceased workers; and children of retired, deceased, and disabled workers.
Specifically, a marriage results in the termination of benefits for (1) divorced spouses
age 62 or older; (2) surviving spouses and surviving divorced spouses under age 60
with a child in-care who is under age 16 or disabled; and (3) children under age 18,
full-time students under age 19, and disabled children over age 18. However, such
benefits may not be terminated if the marriage is to another beneficiary.3




1
    Social Security Administration, Performance and Accountability Report for Fiscal Year 2000, at 4, 5.
2
    Social Security Act, as amended, §§ 202(b)(1) and (c)(1), 42 U.S.C. §§ 402(b)(1) and (c)(1).
3
  Social Security Act, as amended §§ 202(b)(1) through (d)(1) and (g)(1), 42 U.S.C. §§ 402(b)(1)
through (d)(1) and (g)(1).


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                       1
A marriage or divorce may also affect an individual’s SSI eligibility and payment
amount. For example, a marriage or divorce could affect the living arrangements and
deeming of income between SSI recipients and their spouses. When both individuals
receive SSI payments and live together, the total payments are reduced by 25 percent.
When one individual receives SSI payments, the spouse’s income is deemed available
to meet the SSI recipient’s needs. Based on the amount, such income may reduce or
eliminate the individual’s SSI payments.4

Prior audit work disclosed that computer matches with State BVS records may be
useful to identify OASDI beneficiaries who had not reported their marriages or divorces
in a timely manner.5 Accordingly, SSA requested that we conduct a special project to
determine the effectiveness and feasibility of these computer matches. As part of
the special project, SSA purchased 560,256 marriage records and 321,717 divorce
records from Georgia, Kansas, Oregon, and Vermont. In addition, SSA entered into
matching agreements with each of these States.6 A breakdown of the State BVS
records purchased by SSA is provided below.



                            Marriage and Divorce Records Purchased by SSA
                            200,000
                            180,000                                             Marriage Records
                            160,000                                             Divorce Records
        Number of Records




                            140,000
                            120,000
                            100,000
                             80,000
                             60,000
                             40,000
                             20,000
                                 0
                                        Georgia       Kansas        Oregon            Vermont
                                      (1996-1998)   (1990-1997)   (1993-1998)       (1990-1998)




4
    20 C.F.R. §§ 416.410, 416.412, 416.432, and 416.1160.
5
 Office of Inspector General, Department of Health and Human Services, Using Computerized Files to
Detect Unreported Marriages, Pub. No. A-09-87-00052 (April 20, 1988); Office of the Inspector General,
Social Security Administration, Identification of Reported Name Changes That Affect Auxiliary Benefits
Under Title II of the Social Security Act, Pub. No. A-01-94-02001 (June 14, 1996).
6
  The Computer Matching and Privacy Protection Act of 1988, Pub. L. No. 100-503, § 2, establishes
procedures to follow in computer-matching activities. Among these procedures are the negotiation of
written agreements between the participating agencies, the notification of individuals that their records are
subject to matching, and the verification of findings before taking actions that impact payments.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                       2
Using these records, we initially performed computer matches to identify OASDI
beneficiaries and SSI recipients who did not report any changes in their marital status
to SSA. Our survey results disclosed a number of unreported marriages for OASDI
beneficiaries. However, for the SSI cases, we found evidence that SSA was generally
aware of the marriages. In addition, because of the elapsed time since the date of
marriage and the difficulty in establishing living arrangements, we were unable to
identify any overpayments or determine whether SSA had properly resolved these
cases. As a result, we subsequently focused our review on the OASDI cases.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   reviewed the applicable sections of the Act, Code of Federal Regulations, United
    States Code, and SSA’s Program Operations Manual System;

•   interviewed SSA employees from the Offices of the Chief Actuary, Program Benefits,
    Public Service and Operations Support, and Quality Assurance and Performance
    Assessment;

•   reviewed matching agreements from Georgia, Kansas, Oregon, and Vermont for
    disclosure of marriage and divorce records to SSA;

•   obtained electronic copies of State BVS records for marriages and divorces in
    Georgia, Kansas, Oregon, and Vermont;

•   entered the marriage and divorce records into SSA’s Enumeration Verification
    System to identify the Social Security numbers (SSN) of individuals based on their
    full name and date of birth;

•   matched the SSNs against SSA’s Master Beneficiary Record (MBR) to determine
    whether individuals received benefits after the date of marriage or divorce;

•   obtained queries from SSA’s MBR and Payment History Update System to
    determine whether individuals received overpayments and, if so, whether these
    overpayments were offset against underpayments due other individuals in the
    same family;

•   obtained unit cost data for purchasing, processing, and verifying death records from
    State BVS agencies;

•   evaluated the cost-effectiveness of computer matches with State BVS records to
    identify unreported marriages and divorces;

•   obtained statistical data for marriages and divorces in the United States from
    January 1998 to December 2000;


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)       3
•   extrapolated overpayments and program savings for Georgia, Kansas, Oregon, and
    Vermont to the 50 States plus Puerto Rico and the District of Columbia; and

•   referred cases to SSA’s Headquarters for corrective action, including termination of
    benefits and recovery of overpayments.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
October 2000 and May 2002. The entity audited was the Office of Program Benefits
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)       4
                                                Results of Review
Our review disclosed that State BVS records from Georgia, Kansas, Oregon, and
Vermont were useful to identify OASDI beneficiaries who had not reported their
marriages to SSA. Furthermore, based on the results of our computer match, we
found that the projected savings outweighed the related costs of purchasing and
processing the marriage records. Although State BVS records may be used to identify
beneficiaries who had not reported their divorces to SSA, our review disclosed that a
computer match was not cost-effective for divorce records.7

      Computer Match         Using State BVS records from the four States included
    Identified $2.7 Million  in our review, we found that 700 beneficiaries received
      in Overpayments        $2,716,854 in OASDI overpayments because they did not
                             report their marriages from January 1990 to December 1998.
In addition, eight individuals received $49,599 in OASDI overpayments because they
did not report their divorces from January 1990 to December 1998. If SSA had
purchased State BVS records to identify unreported marriages at the end of 1999 and
each year thereafter, we estimate that SSA could have detected about $570,553 in
OASDI overpayments on an annual basis at an estimated cost of $79,630, resulting in
program savings of about $490,923. Over a 5-year period, we estimate that SSA could
have realized about $2.4 million in program savings, including about $0.8 million in the
year of marriage and about $1.6 million in subsequent years (see Appendix A).

We recognize the actual number of marriages and divorces may vary from year to year
and State to State. We also recognize that some States may not retain marriage
and divorce records in an electronic format. However, to demonstrate the potential
effectiveness of matching electronic marriage records, we assumed the unreported
marriages in the four States were representative of those in the United States.
Accordingly, we extrapolated the results of our review to the 50 States plus Puerto
Rico and the District of Columbia. If SSA had purchased State BVS records to identify
unreported marriages at the end of 1999 and each year thereafter, we estimate that
SSA could have detected about $11.9 million in OASDI overpayments on an annual
basis at an estimated cost of $1.7 million, resulting in program savings of about
$10.2 million. Over a 5-year period, we estimate that SSA could have realized about
$51.2 million in program savings, including about $17.3 million in the year of marriage
and about $33.9 million in subsequent years (see Appendix B). The improper payments
are illustrated in the following chart.


7
  Our review was initiated at the request of SSA after it had entered into matching agreements and
purchased marriage and divorce records from four States. Using this data, we evaluated the feasibility
of performing computer matches to identify beneficiaries who did not report changes in their marital
status. Accordingly, our report provides a cost-benefit analysis of the estimated overpayments, workload
costs, and program savings resulting from these computer matches if the four States in our review are
representative of the United States.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                   5
                                 Unreported Marriages Resulting in Overpayments
                                       Estimated 5-Year Savings for the United States


                                 $35
      Total Dollars (Millions)




                                 $30

                                 $25
                                                                                  Program Savings in
                                                           $33.9 Million          Year of Marriage
                                 $20
                                                                                  Program Savings in
                                 $15                                              Subsequent Years

                                 $10       $17.3 Million
                                  $5

                                  $0




UNREPORTED MARRIAGES
Our review of 560,256 marriage records in Georgia, Kansas, Oregon, and Vermont
disclosed that 1,380 beneficiaries did not report their marriages from January 1990 to
December 1998. For 700 of the 1,380 beneficiaries (50.7 percent), we determined that
the marriages resulted in overpayments that SSA should have recovered. These cases
were referred to SSA for corrective action, including termination of benefits and
recovery of overpayments. For 264 beneficiaries (19.1 percent), the marriages resulted
in overpayments that should have been offset against underpayments due other
individuals in the same family. As a result, these marriages did not affect the amount of
benefits the Agency paid.8 For the remaining 416 beneficiaries (30.2 percent), the
marriages did not result in overpayments because the individuals were generally neither
entitled to benefits nor in current pay status on the date of marriage. The following chart
summarizes the results of our computer match for unreported marriages.




8
  In these instances, SSA adjusts its payment records but does not pursue recovery actions because
the total benefits paid to the family are not affected. Accordingly, we excluded these cases from our
cost-benefit analysis. To determine the feasibility of computer matches to identify unreported marriages,
we included only the 700 overpayments subject to recovery actions.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                        6
                    Summary of Unreported Marriages
                        Kansas, Georgia, Oregon, and Vermont

     Overpayments                                                           No Overpayments
      700 (50.7%)                                                              416 (30.2%)




                                                                        Overpayments Offset
                                                                       Against Underpayments
                                                                            264 (19.1%)




Improper Payments

Based on the results of our computer match, we found that 700 individuals received
$2,716,854 in payments to which they were not entitled. Of this amount, SSA disbursed
$1,016,103 (37.4 percent) in the year of marriage and $1,700,751 (62.6 percent) in
subsequent years. Generally, these individuals consisted of children under age 18,
full-time students under age 19, disabled children over age 18, and surviving spouses
(including divorced spouses) under age 60 with a child in-care. In some instances,
the beneficiaries did not report their marriages in a timely manner. However, in other
instances, the beneficiaries did not report their marriages at all. Since SSA was
unaware of such events, some of the overpayments went undetected for over
120 months after the date of the marriage.

    One Beneficiary        For example, one individual received benefits as the
   Received $77,708        surviving child of his deceased father in November 1979.
   in Overpayments         SSA terminated benefits in June 1987, when he reached
                           age 19. In February 1990, the individual received benefits as
a disabled adult child. However, in August 1990, he married a nonbeneficiary without
reporting the event to SSA. Our computer match disclosed that the marriage should
have resulted in the termination of benefits. In January 2001, we referred the case
to SSA for corrective action. Although SSA terminated benefits in June 2001, the
marriage went undetected for 130 months. If marriage records were purchased at the
end of 1990, SSA could have established $2,573 in overpayments during the year of
marriage and avoided $75,135 in overpayments during subsequent years. As of
May 2002, SSA had not recovered overpayments of $76,910.



Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)           7
To prevent future occurrences of similar problems, we believe SSA should not always
rely on beneficiaries to report their marriages in a timely manner. Our review disclosed
that many of these marriages were neither reported by beneficiaries nor detected by
SSA. Additional controls are necessary to provide for timely identification of marriages
that affect the continuing entitlement to benefits. As a result, we believe SSA should
periodically perform computer matches with State BVS records to independently verify
the marital status of its beneficiaries.

Lessons Learned

SSA needs to strengthen its controls and procedures to improve program integrity
and deter fraud, waste, and abuse. Therefore, we encourage SSA to conduct a survey
of State BVS agencies to determine the cost of purchasing marriage records in an
electronic format. Where such records are unavailable, SSA should encourage State
BVS agencies to convert their marriage records into an electronic format. Our review
disclosed that only two data elements (full name and date of birth) were required to
produce a valid match. Although other data elements (SSN and mother’s maiden
name) may facilitate the computer match, these items were not necessary to identify
beneficiaries who did not report their marriages to SSA.

Based on the survey results, SSA should establish guidelines for computer matching
of State marriage records against SSA’s beneficiary records. These guidelines should
include provisions for (1) determining the frequency of purchasing the marriage records
and (2) monitoring the cost-effectiveness of performing the computer matches. We
believe State BVS records should be purchased annually to provide for early detection
of unreported marriages and minimize the amount of overpayments. However, if States
offer volume discounts based on the number of marriage records, it may be more
cost-effective to purchase such records less frequently.

We also encourage SSA to work with State BVS agencies to obtain matching
agreements for marriage records. In Georgia, Kansas, Oregon, and Vermont, we found
the matching agreements restricted the disclosure of marriage records to SSA for
limited purposes (that is, to verify program eligibility and payment amounts for
beneficiaries). Furthermore, the agreements prohibited the distribution of such records
within or outside of the Agency. We believe the matching agreements should include
the authority for the Office of the Inspector General (OIG) to use marriage records for
criminal investigations.

Upon completion of the matching agreements, SSA should periodically purchase
marriage records and perform computer matches to identify beneficiaries who did not
report their marriages to SSA. In addition, we encourage SSA to develop procedures
to ensure timely processing of unreported marriages identified through computer
matches with State BVS records. These procedures should, at a minimum, require
SSA’s field offices and processing centers to contact the beneficiary’s residence and
obtain supporting documentation (for example, a marriage certificate) to verify whether
the marriage resulted in the termination of benefits.



Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)       8
UNREPORTED DIVORCES
Our review of 321,717 divorce records in Georgia, Kansas, Oregon, and Vermont
disclosed that 574 beneficiaries did not report their divorces from January 1990 to
December 1998. For 8 of the 574 beneficiaries (1.4 percent), we determined the
divorces resulted in overpayments that SSA should have recovered. These cases were
referred to SSA for corrective action, including termination of benefits and recovery of
overpayments. For 131 beneficiaries (22.8 percent), the divorces resulted in
overpayments that should have been offset against underpayments due other
individuals in the same family. As a result, these divorces did not affect the amount of
benefits paid by the Agency. For the remaining 435 beneficiaries (75.8 percent), the
divorces did not result in overpayments because the individuals were generally neither
entitled to benefits nor in current pay status on the date of divorce. The following chart
summarizes the results of our computer match for unreported divorces.



                       Summary of Unreported Divorces
                        Kansas, Georgia, Oregon, and Vermont

     No Overpayments                                                          Overpayments
        435 (75.8%)                                                             8 (1.4%)




                                                                       Overpayments Offset
                                                                      Against Underpayments
                                                                           131 (22.8%)




Based on the results of our computer match, we found that eight individuals received
$49,599 in payments to which they were not entitled. Of this amount, SSA disbursed
$8,771 (17.7 percent) in the year of divorce and $40,828 (82.3 percent) in subsequent
years. Generally, these individuals consisted of spouses under age 62 with a child
in-care and spouses age 62 or older who were married less than 10 years before the
divorce. To identify these overpayments, we estimate that SSA would incur $218,057 in
workload costs to purchase and process the divorce records for Georgia, Kansas,
Oregon, and Vermont. Because of the low error rate, the projected savings do not
outweigh the related costs of purchasing and processing the divorce records. As a
result, our review disclosed that a computer match was not cost-effective for divorce
records.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)          9
                                             Conclusions and
                                          Recommendations
Using State BVS records from Georgia, Kansas, Oregon, and Vermont, we found
that 700 beneficiaries received $2,716,854 in OASDI overpayments because they did
not report their marriages from January 1990 to December 1998. In addition, eight
individuals received $49,599 in OASDI overpayments because they did not report
their divorces from January 1990 to December 1998. We recognize the actual number
of marriages and divorces may vary from year to year and State to State. We also
recognize that some States may not retain marriage and divorce records in an
electronic format.

However, to demonstrate the potential effectiveness of matching electronic marriage
records, we assumed the unreported marriages in the four States were representative
of those in the United States. Accordingly, we extrapolated the results of our review to
the 50 States plus Puerto Rico and the District of Columbia. If SSA had purchased
State BVS records to identify unreported marriages at the end of 1999 and each year
thereafter, we estimate that SSA could have detected about $11.9 million in OASDI
overpayments on an annual basis at an estimated cost of $1.7 million, resulting in
program savings of about $10.2 million. Over a 5-year period, we estimate that
SSA could have realized about $51.2 million in program savings, including about
$17.3 million in the year of marriage and about $33.9 million in subsequent years
(see Appendices A and B).

RECOMMENDATIONS
We believe that SSA needs to implement a more proactive system to identify
beneficiaries who do not report their marriages in a timely manner. By performing a
periodic computer match with State BVS records, SSA would improve its stewardship
of the program and reduce the overpayments resulting from unreported marriages.
Such a system should also reduce the vulnerability of the Agency to individuals who
misrepresent their marital status to receive benefits to which they are not entitled.
Therefore, we recommend that SSA:

1. Conduct a survey of State BVS agencies to determine the cost of purchasing
   marriage records in an electronic format. These records should, at a minimum,
   contain the full name and date of birth for each individual.

2. Where computerized records are unavailable, encourage State BVS agencies to
   convert their marriage records into an electronic format.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)    10
3. Establish guidelines for purchasing the State marriage records and monitoring the
   cost-effectiveness of performing computer matches against SSA’s beneficiary
   records.

4. Work with State BVS agencies to obtain matching agreements that include the
   authority for OIG to use such records, where potentially fraudulent activity is
   suspected, for criminal investigations.

5. Periodically purchase marriage records and perform computer matches to identify
   beneficiaries who did not report their marriages to SSA.

6. Develop procedures to ensure timely processing of unreported marriages identified
   through computer matches with State BVS records.

7. Initiate corrective action, including termination of benefits and recovery of
   overpayments, for the 700 unreported marriages and 8 unreported divorces
   identified during our review.

AGENCY COMMENTS
In its response, SSA agreed with the potential savings resulting from the use of State
BVS records to identify beneficiaries who did not report their marriages. Although SSA
agreed with the cost-effectiveness of performing computer matches, it was unable to
implement many of our recommendations at this time because of a lack of resources.
SSA agreed to rely on other tools, including the Beneficiary Recontact Program, to
identify unreported marriages. In addition, SSA agreed to continue in its efforts to work
with the National Center for Health Statistics and National Association for Public Health
Statistics and Information Systems to promote the reengineering of State vital records
processes. SSA also stated that it had initiated corrective action on the unreported
marriages and divorces identified during our review. The full text of SSA’s comments
is included in Appendix C.

OIG RESPONSE
We recognize that limited resources may place constraints on the Agency. However,
we believe that periodic computer matches with State BVS records are necessary to
reduce the vulnerability of the Agency to individuals who misrepresent their marital
status to receive benefits to which they are not entitled. Therefore, we encourage
SSA to seek authority for additional resources to strengthen program integrity and
stewardship.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)   11
                                      Appendices




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)
                                                                         Appendix A

Cost-Benefit Analysis for Four States
The Social Security Administration (SSA) requested that we conduct a special project
to determine the usefulness of State bureaus of vital statistics (BVS) records to identify
beneficiaries who did not report their marriages in a timely manner. As part of the
special project, SSA purchased marriage records from four States (Georgia, Kansas,
Oregon, and Vermont) located in the Southeastern, Midwestern, Western, and
Northeastern United States (see Table A-1).

                  Table A-1 – Marriage Records Purchased by SSA

                                                      Number                 Marriage
       State                  Years                   of Years               Records
 Georgia                    1996 - 1998                   3                        181,676
 Kansas                     1990 - 1997                   8                        172,015
 Oregon                     1993 - 1998                   6                        152,675
 Vermont                    1990 - 1998                   9                         53,890
 Total                                                                             560,256

Our review of 560,256 marriage records in Georgia, Kansas, Oregon, and Vermont
disclosed that 1,380 beneficiaries did not report their marriages from January 1990
to December 1998. Of this amount, we found that 700 marriages resulted in
overpayments that SSA should have recovered. Another 264 marriages resulted in
overpayments that should have been offset against underpayments due other
individuals in the same family. As a result, these marriages did not affect the amount of
benefits paid by the Agency. In addition, 416 marriages did not result in overpayments
because the individuals were generally neither entitled to benefits nor in current pay
status on the date of marriage (see Table A-2).

               Table A-2 – Unreported Marriages Per Computer Match

                                                         Overpayments
                     Unreported         Without           Offset Against        With
       State         Marriages        Overpayments       Underpayments      Overpayments
 Georgia                      637               164                  130             343
 Kansas                       458               185                   71             202
 Oregon                       221                48                   49             124
 Vermont                       64                19                   14              31
 Total                      1,380               416                  264             700




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)   A-1
Based on the results of our computer match, we determined that 700 beneficiaries
received $2,716,854 in payments to which they were not entitled. Of this amount,
SSA disbursed $1,016,103 in the year of marriage and $1,700,751 in subsequent
years (see Table A-3).

                   Table A-3 – Overpayments Per Computer Match

                         Overpayments in         Overpayments in              Total
       State             Year of Marriage       Subsequent Years          Overpayments
 Georgia                          $540,956               $515,817              $1,056,773
 Kansas                            280,049                889,261               1,169,310
 Oregon                            154,560                162,265                 316,825
 Vermont                            40,538                133,408                 173,946
 Total                          $1,016,103             $1,700,751              $2,716,854

The number of years for which SSA purchased marriage records varied by State.
We calculated the average number of unreported marriages per year by dividing
the total number of unreported marriages (see Table A-2) by the number of years for
which marriage records were purchased (see Table A-1). Assuming that all variables
remained constant, we estimate that SSA would identify 313 unreported marriages
annually (see Table A-4).

                      Table A-4 – Unreported Marriages Per Year

                             Unreported               Number                 Average
       State                 Marriages                of Years               Per Year
 Georgia                                 637              3                             212
 Kansas                                  458              8                              57
 Oregon                                  221              6                              37
 Vermont                                  64              9                               7
 Total                                 1,380                                            313

We also calculated the average number of unreported marriages resulting in
overpayments per year by dividing the number of unreported marriages with
overpayments (see Table A-2) by the number of years for which marriage records
were purchased (see Table A-1). Assuming that all variables remained constant,
we estimate that 163 unreported marriages resulted in overpayments annually
(see Table A-5).




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)    A-2
           Table A-5 – Unreported Marriages with Overpayments Per Year

                           Marriages with             Number                 Average
       State               Overpayments               of Years               Per Year
 Georgia                                343               3                             114
 Kansas                                 202               8                              25
 Oregon                                 124               6                              21
 Vermont                                  31              9                               3
 Total                                  700                                             163

OVERPAYMENTS

We calculated the average overpayments in the year of marriage by dividing the
overpayments through December of the year of marriage (see Table A-3) by the
number of years for which marriage records were purchased (see Table A-1).
Assuming that all variables remained constant, we estimate that SSA would disburse
$245,589 in overpayments annually during the year of marriage (see Table A-6).

               Table A-6 – Average Overpayments in Year of Marriage

                         Overpayments in              Number                 Average
       State             Year of Marriage             of Years               Per Year
 Georgia                          $540,956                3                       $180,319
 Kansas                            280,049                8                         35,006
 Oregon                            154,560                6                         25,760
 Vermont                            40,538                9                          4,504
 Total                          $1,016,103                                        $245,589

In addition, we calculated the average overpayments in the years after the marriage
by dividing the overpayments in subsequent years (see Table A-3) by the number of
years for which marriage records were purchased (see Table A-1). Assuming that
all variables remained constant, we estimate that SSA would disburse $324,964 in
overpayments annually during the years after the marriage (see Table A-7).

               Table A-7 – Average Overpayments in Subsequent Years

                          Overpayments in             Number                 Average
       State             Subsequent Years             of Years               Per Year
 Georgia                          $515,817                3                       $171,939
 Kansas                            889,261                8                        111,158
 Oregon                            162,265                6                         27,044
 Vermont                           133,408                9                         14,823
 Total                          $1,700,751                                        $324,964




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)    A-3
WORKLOAD COSTS
As part of the special project, SSA contracted with Georgia, Kansas, Oregon, and
Vermont to purchase marriage records at a cost of $0.25 per record. However, SSA
employees1 informed us they may be unable to negotiate such rates in the future.
Based on data provided by the Agency, the cost to purchase a death report from the
State BVS is about $0.62 per record. SSA employees agreed that the actual cost per
death report may be used as a baseline for the estimated cost per marriage record.
As a result, we calculated the purchase costs for marriage records by multiplying the
average number of marriages per year by the estimated cost per marriage record.
According to the Department of Health and Human Services (HHS),2 there are about
112,083 marriages in Georgia, Kansas, Oregon, and Vermont each year. Assuming
that all variables remained constant, we estimate that SSA would incur $69,492 in
workload costs to purchase marriage records annually (see Table A-8).

                 Table A-8 – Estimated Cost to Purchase Marriage Records

                               Total Marriages           Purchase Cost                    Total
          State                   Per Year                Per Record                      Cost
    Georgia                               59,479                   $0.62                      $36,877
    Kansas                                20,705                    0.62                        12,837
    Oregon                                25,911                    0.62                        16,065
    Vermont                                5,988                    0.62                         3,713
    Total                               112,083                                               $69,492

Based on data provided by the Agency, the cost to process a death report is about
$32.39 per case. SSA employees agreed that the actual cost to process a death report
may be used as a baseline for the estimated cost to process a marriage record. As
a result, we calculated the processing costs for marriage records by multiplying the
average number of unreported marriages per year in Georgia, Kansas, Oregon, and
Vermont (see Table A-4) by the estimated cost to process a marriage record. Assuming
that all variables remained constant, we estimate that SSA would incur $10,138 in
workload costs to process marriage records annually (see Table A-9).




1
    Staff members from the Office of Program Benefits.
2
  National Center for Health Statistics, Department of Health and Human Services, National
Vital Statistics Reports, Provisional Tables on Births, Marriages, Divorces, and Deaths by State
for 1998-2000, 49M6 Table 3-12, Table 3. Provisional number of marriages and divorces:
Each division and State, December 1999 and 2000, and cumulative figures, 1998-2000, at
http://www.cdc.gov/nchs/data/nvsr/nvsr49/49_06_12_03.pdf (through October 2, 2002).


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)               A-4
                  Table A-9 – Estimated Cost to Process Marriage Records

                                Unreported             Processing Cost                  Total
          State                 Marriages                 Per Case3                     Cost
    Georgia                                   212                $32.39                        $6,867
    Kansas                                     57                 32.39                         1,846
    Oregon                                     37                 32.39                         1,198
    Vermont                                     7                 32.39                           227
    Total                                     313                                             $10,138

For these four States, we estimate that SSA would incur $79,630 in workload costs to
purchase and process marriage records annually. This estimate included $69,492 of
purchase costs and $10,138 of processing costs (see Table A-10).

          Table A-10 – Total Cost to Purchase and Process Marriage Records

                                 Purchase                 Processing                  Workload
          State                   Costs                     Costs                      Costs
    Georgia                            $36,877                    $6,867                    $43,744
    Kansas                              12,837                     1,846                     14,683
    Oregon                              16,065                     1,198                     17,263
    Vermont                              3,713                       227                      3,940
    Total                              $69,492                  $10,138                     $79,630

PROGRAM SAVINGS
To calculate the program savings in the year of marriage, we subtracted the
workload costs to purchase and process marriage records (see Table A-10) from
the overpayments in the year of marriage (see Table A-6). Accordingly, we estimate
that SSA would realize $165,959 in program savings annually during the year of
marriage. Assuming that all variables remained constant, we estimate that SSA
would realize $829,795 in program savings over a 5-year period (see Table A-11).

             Table A-11 – Estimated Program Savings in Year of Marriage

                             Description                                               Amount
    Average Overpayments in Year of Marriage                                              $245,589
    - Total Workload Costs Per Year                                                        $79,630
    Estimated Program Savings Per Year                                                    $165,959
    × Number of Years                                                                            5
    Estimated Program Savings Over 5-Year Period                                          $829,795


3
  Represents the estimated unit cost to review marriage records but does not include the estimated unit
cost to resolve overpayments. Actual costs were unavailable at the time of our audit.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                A-5
Since the total costs to purchase and process marriage records are only incurred once
per computer match, we deducted the workload costs from the overpayments in the
year of marriage. These costs are not applicable to the overpayments in the years after
the marriage (see Table A-7), which represent additional savings from the computer
match. Accordingly, we estimate that SSA would realize $324,964 in program savings
annually during the years after the marriage. Assuming that all variables remained
constant, we estimate that SSA would realize $1,624,820 in program savings over a
5-year period (see Table A-12).

           Table A-12 – Estimated Program Savings in Subsequent Years

                          Description                                         Amount
 Average Overpayments in Subsequent Years                                         $324,964
 - Total Workload Costs Per Year                                                        $0
 Estimated Program Savings Per Year                                               $324,964
 × Number of Years                                                                       5
 Estimated Program Savings Over 5-Year Period                                   $1,624,820

COST-BENEFIT ANALYSIS
To measure the cost-effectiveness of computer matches with State BVS records to
identify unreported marriages in Georgia, Kansas, Oregon, and Vermont, we calculated
the overpayments (see Tables A-6 and A-7), workload costs (see Table A-10), and
program savings (see Tables A-11 and A-12). Accordingly, if SSA had purchased
State BVS records to identify unreported marriages at the end of 1999 and each year
thereafter, we estimate that SSA could have detected $570,553 in overpayments on an
annual basis at an estimated cost of $79,630, resulting in program savings of $490,923.
Over a 5-year period, we estimate that SSA could have realized $2,454,615 in program
savings, including $829,795 in the year of marriage and $1,624,820 in subsequent
years (see Table A-13).

                  Table A-13 – Cost-Benefit Analysis for Four States

     Description          Year of Marriage       Subsequent Years              Total
 Overpayments                     $245,589              $324,964                 $570,553
 Workload Costs                    (79,630)                    (0)                 (79,630)
 Program Savings                   165,959                324,964                 490,923
 5-Year Savings                   $829,795             $1,624,820              $2,454,615




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)    A-6
                                                                                    Appendix B

Cost-Benefit Analysis for the United States
We recognize the actual number of marriages and divorces and the availability of these
records in an electronic format may vary by year and State. However, to demonstrate
the potential effectiveness of matching electronic marriage records, we assumed the
unreported marriages in the four States were representative of those in the United
States. Accordingly, we extrapolated the results of our review to the 50 States plus
Puerto Rico and the District of Columbia. According to the Department of Health and
Human Services (HHS),1 there are about 2,335,655 marriages in the United States
annually. Of this amount, there are about 112,083 marriages in Georgia, Kansas,
Oregon, and Vermont each year. Assuming that all variables remained constant, we
estimate the number of marriages in the four States represented about 4.8 percent of
the total marriages in the United States (see Table B-1).

            Table B-1 – Ratio of Marriages in Four States to the United States

                              Description                                               Amount
    Total Marriages Per Year in Four States                                                 112,083
    ÷ Total Marriages Per Year in the United States                                       2,335,655
    Ratio of Marriages in Four States to the United States                                    4.80%

We divided the average number of unreported marriages per year in Georgia, Kansas,
Oregon, and Vermont (see Table A-4) by the ratio of total marriages in the four States
expressed as a percentage of the total marriages in the United States (see Table B-1).
Assuming that all variables remained constant, we estimate that the Social Security
Administration (SSA) would identify 6,521 unreported marriages in the United States
annually (see Table B-2).

                  Table B-2 – Estimated Unreported Marriages Per Year

                              Description                                               Amount
    Unreported Marriages Per Year in Four States                                                      313
    ÷ Ratio of Marriages in Four States to the United States                                       4.80%
    Unreported Marriages Per Year in the United States                                              6,521




1
  National Center for Health Statistics, Department of Health and Human Services, National
Vital Statistics Reports, Provisional Tables on Births, Marriages, Divorces, and Deaths by State
for 1998-2000, 49M6 Table 3-12, Table 3. Provisional number of marriages and divorces:
Each division and State, December 1999 and 2000, and cumulative figures, 1998-2000, at
http://www.cdc.gov/nchs/data/nvsr/nvsr49/49_06_12_03.pdf (through October 2, 2002).


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                  B-1
We also divided the average number of unreported marriages resulting in overpayments
per year in Georgia, Kansas, Oregon, and Vermont (see Table A-5) by the ratio of total
marriages in the four States expressed as a percentage of the total marriages in the
United States (see Table B-1). Assuming that all variables remained constant, we
estimate that 3,396 unreported marriages resulted in overpayments in the United
States annually (see Table B-3).

    Table B-3 – Estimated Unreported Marriages with Overpayments Per Year

                           Description                                        Amount
 Number of Overpayments Per Year in Four States                                           163
 ÷ Ratio of Marriages in Four States to the United States                              4.80%
 Number of Overpayments Per Year in the United States                                   3,396

OVERPAYMENTS
Based on the amount and number of overpayments from Georgia, Kansas, Oregon,
and Vermont, we calculated the average overpayment per case. For the average
overpayment in the year of marriage, we divided the total overpayments in the
year of marriage (see Table A-6) by the number of unreported marriages resulting
in overpayments per year (see Table A-5). Assuming that all variables remained
constant, we estimate the average overpayment per case was $1,507 in the year of
marriage (see Table B-4).

                Table B-4 – Average Overpayment in Year of Marriage

                         Description                                          Amount
 Total Overpayments in Year of Marriage                                          $245,589
 ÷ Unreported Marriages with Overpayments Per Year                                    163
 Average Overpayment Per Case                                                      $1,507

For the average overpayment in the years after the marriage, we divided the total
overpayments in subsequent years (see Table A-7) by the number of unreported
marriages resulting in overpayments per year (see Table A-5). Assuming that all
variables remained constant, we estimate the average overpayment per case
was $1,994 in the years after the marriage (see Table B-5).

               Table B-5 – Average Overpayment in Subsequent Years

                         Description                                          Amount
 Total Overpayments in Subsequent Years                                          $324,964
 ÷ Unreported Marriages with Overpayments Per Year                                    163
 Average Overpayment Per Case                                                      $1,994




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)      B-2
To calculate the overpayments for the year of marriage, we multiplied the estimated
number of unreported marriages per year in the United States (see Table B-3) by the
average overpayment per case (see Table B-4). Accordingly, we estimate that SSA
would identify $5,117,772 in overpayments annually during the year of marriage
(see Table B-6).

              Table B-6 – Estimated Overpayments in Year of Marriage

                         Description                                          Amount
 Unreported Marriages Per Year in the United States                                  3,396
 × Average Overpayment Per Case                                                     $1,507
 Total Overpayments in Year of Marriage                                         $5,117,772

To calculate the overpayments for the years after the marriage, we multiplied the
estimated number of unreported marriages per year in the United States (see Table
B-3) by the average overpayment per case (see Table B-5). Accordingly, we estimate
that SSA would identify $6,771,624 in overpayments annually during the years after the
marriage (see Table B-7).

             Table B-7 – Estimated Overpayments in Subsequent Years

                         Description                                          Amount
 Unreported Marriages Per Year in the United States                                  3,396
 × Average Overpayment Per Case                                                     $1,994
 Total Overpayments in Subsequent Years                                         $6,771,624

WORKLOAD COSTS

Using data obtained from HHS and SSA, we calculated the purchase costs for marriage
records by multiplying the average number of marriages per year in the United States
(see Table B-1) by the estimated cost per marriage record (see Table A-8). Assuming
that all variables remained constant, we estimate that SSA would incur $1,448,106 in
workload costs to purchase marriage records annually (see Table B-8).

             Table B-8 – Estimated Cost to Purchase Marriage Records

                           Description                                        Amount
 Total Marriages Per Year in the United States                                   2,335,655
 × Purchase Cost Per Record                                                          $0.62
 Estimated Cost to Purchase Marriage Records                                    $1,448,106




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)   B-3
In addition, we calculated the processing costs for marriage records by multiplying the
average number of unreported marriages per year in the United States (see Table B-2)
by the estimated cost to process a marriage record (see Table A-9). Assuming that all
variables remained constant, we estimate that SSA would incur $211,215 in workload
costs to process marriage records annually (see Table B-9).

                Table B-9 – Estimated Cost to Process Marriage Records

                             Description                                               Amount
    Unreported Marriages Per Year in the United States                                         6,521
    × Processing Cost Per Case2                                                               $32.39
    Estimated Cost to Process Marriage Records                                              $211,215

For the United States, we estimate that SSA would incur $1,659,321 in workload
costs to purchase and process marriage records annually. This estimate included
$1,448,106 of purchase costs and $211,215 of processing costs (see Table B-10).

          Table B-10 – Total Cost to Purchase and Process Marriage Records

                             Description                                               Amount
    Estimated Cost to Purchase Marriage Records                                          $1,448,106
    + Estimated Cost to Process Marriage Records                                            211,215
    Total Cost to Purchase and Process Marriage Records                                  $1,659,321

PROGRAM SAVINGS
To calculate the program savings in the year of marriage, we subtracted the
workload costs to purchase and process marriage records (see Table B-10) from
the overpayments in the year of marriage (see Table B-6). Accordingly, we estimate
that SSA would realize $3,458,451 in program savings annually during the year of
marriage. Assuming that all variables remained constant, we estimate that SSA
would realize $17,292,255 in program savings over a 5-year period (see Table B-11).

              Table B-11 – Estimated Program Savings in Year of Marriage

                             Description                                               Amount
    Average Overpayments in Year of Marriage                                             $5,117,772
    - Total Workload Costs Per Year                                                      $1,659,321
    Estimated Program Savings Per Year                                                   $3,458,451
    × Number of Years                                                                             5
    Estimated Program Savings Over 5-Year Period                                        $17,292,255


2
  Represents the estimated unit cost to review marriage records but does not include the estimated unit
cost to resolve overpayments. Actual costs were unavailable at the time of our audit.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)                B-4
We deducted the workload costs from the overpayments in the year of marriage
because they were incurred as a result of the computer match. Therefore, these costs
were not deducted from the overpayments in the years after the marriage (see Table
B-7), which represent additional savings from the computer match. Accordingly, we
estimate that SSA would realize $6,771,624 in program savings annually during the
years after the marriage. Assuming that all variables remained constant, we estimate
that SSA would realize $33,858,120 in program savings over a 5-year period (see
Table B-12).

           Table B-12 – Estimated Program Savings in Subsequent Years

                          Description                                         Amount
 Average Overpayments in Subsequent Years                                       $6,771,624
 - Total Workload Costs Per Year                                                        $0
 Estimated Program Savings Per Year                                             $6,771,624
 × Number of Years                                                                       5
 Estimated Program Savings Over 5-Year Period                                  $33,858,120

COST-BENEFIT ANALYSIS
To measure the cost-effectiveness of computer matches with State bureaus of vital
statistics (BVS) records to identify unreported marriages in the United States, we
calculated the overpayments (see Tables B-6 and B-7), workload costs (see Table
B-10), and program savings (see Tables B-11 and B-12). Accordingly, if SSA had
purchased State BVS records to identify unreported marriages at the end of 1999
and each year thereafter, we estimate that SSA could have detected $11,889,396 in
overpayments on an annual basis at an estimated cost of $1,659,321, resulting in
program savings of $10,230,075. Over a 5-year period, we estimate that SSA could
have realized $51,150,375 in program savings, including $17,292,255 in the year of
marriage and $33,858,120 in subsequent years (see Table B-13).

              Table B-13 – Cost-Benefit Analysis for the United States

     Description          Year of Marriage       Subsequent Years             Total
 Overpayments                   $5,117,772             $6,771,624             $11,889,396
 Workload Costs                 (1,659,321)                    (0)             (1,659,321)
 Program Savings                  3,458,451             6,771,624              10,230,075
 5-Year Savings                $17,292,255            $33,858,120             $51,150,375




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)   B-5
                                                                         Appendix C

Agency Comments




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)
                                   SOCIAL SECURITY

MEMORANDUM


Date:      April 18, 2003                                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject: Office of the Inspector General (OIG) Draft “Use of State Bureaus of Vital Statistics Records to
           Detect Unreported Marriages and Divorces" (Audit No. A-09-00-30059)—INFORMATION



           We appreciate the OIG’s efforts in conducting this review. Our comments on the draft report
           contents and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




      Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "USE OF STATE BUREAUS OF VITAL STATISTICS (BVS) RECORDS TO
DETECT UNREPORTED MARRIAGES AND DIVORCES" (AUDIT #A-09-00-30059)

Thank you for the opportunity to review and comment on the report. Although we agree we
should seek better marriage and divorce information, we believe there are several obstacles to the
recommended approach, as outlined below.

•   Matching marriage records with those States that have electronic files is technically possible.
    However, the availability of electronic files with data elements (e.g., SSN, date of birth) to
    match efficiently against our payment files is uneven nationally. The costs increase and the
    benefits decrease significantly for records without an SSN and at least a date of birth.

•   In 2000, The National Association for Public Health Statistics and Information Systems
    (NAPHSIS) (a non-profit organization that represents all vital records directors) surveyed all
    States to determine if they had electronic files of marriage and divorce and which data
    elements they collect. For marriage records, only 14 of the 44 States responding collected
    SSNs and only 9 had all of the elements SSA needs. For divorce records, 34 of the 43 States
    responding had electronic records and only 8 of those States had SSNs connected to the
    record.

•   For many States, conversion of records to an electronic format would involve significant
    costs. Most States are reluctant to expand their data collection in this area to accommodate
    SSA’s needs for matching unless they are certain that SSA will provide funding for
    conversion and purchase the records.

•   Because of the lack of the SSN on many State records, SSA would have to build an alpha
    matching process, which would be resource intensive.

•   The above costs, including the costs to purchase records from the States, will negatively
    impact the cost benefit of matching agreements if it is pursued before the re-engineering of
    the records.

Our responses to the specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should conduct a survey of State BVS agencies to
determine the cost of purchasing marriage records in an electronic format. These records should,
at a minimum, contain the full name and date of birth for each individual.

SSA Response

While we agree with the potential savings, we are not able to implement this recommendation at
this time. Although cost effective, moving forward on this project would divert scarce systems,
staff and other resources from other matching and automation projects that have higher benefits.


Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)            C-2
We have an established systems prioritization process that ranks projects by Agency priority as
well as return on investment.

We will continue to rely on other existing tools, including the Beneficiary Recontact Program, to
detect unreported marriages. This program targets the two beneficiary groups proven to be the
most likely to not report marriage timely, and since the program started, overpayments to
mothers/fathers detected as a result of this program total approximately $2 million per year.

We also plan to continue our current work with the National Center for Health Statistics and the
States, through the National Association for Public Health Statistics and Information Systems, to
promote the reengineering of the State vital records processes. The goal of the reengineering
effort is to develop a base vital records system model that will incorporate the business
requirements and functionality that are common to all vital records business operations. The
initial phases of the effort deal with birth and death records, but should lay the groundwork for
improvements in the infrastructure supporting marriage records.

Recommendation 2

Where computerized records are unavailable, SSA should encourage State BVS agencies to
convert their marriage records into an electronic format.

SSA Response

See response for recommendation number one.

Recommendation 3

SSA should establish guidelines for purchasing the State marriage records and monitoring the
cost-effectiveness of performing computer matches against SSA’s beneficiary records.

SSA Response

See response for recommendation number one.

Recommendation 4

SSA should work with State BVS agencies to obtain matching agreements that include the
authority for OIG to use such records, where potentially fraudulent activity is suspected, for
criminal investigations.

SSA Response

See response for recommendation number one.

Recommendation 5




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)             C-3
SSA should periodically purchase marriage records and perform computer matches to identify
beneficiaries who did not report their marriages to SSA.

SSA Response

See response for recommendation number one.

Recommendation 6

SSA should develop procedures to ensure timely processing of unreported marriages identified
through computer matches with State BVS records.

SSA Response

See response for recommendation number one.

Recommendation 7

SSA should initiate corrective action, including termination of benefits and recovery of
overpayments, for the 700 unreported marriages and 8 unreported divorces identified during our
review.

SSA Response

We agree and have initiated corrective action on the unreported marriages and divorces
identified during the review. We expect all cases to be developed and corrective action taken by
the end of fiscal year 2003.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)         C-4
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

   Jimmie R. Harris, Senior Auditor

   Regina D. Finley, Auditor

   Daniel L. Hoy, Auditor

   Brennan Kraje, Statistician, Policy, Planning and Technical Services

   Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-00-30059.




Use of State BVS Records to Detect Unreported Marriages and Divorces (A-09-00-30059)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
